OFFICE OF INSPECTOR GENERAL 


AUDIT OF THE OVERSEAS
PRIVATE INVESTMENT
CORPORATION'S FISCAL YEAR
2013 COMPLIANCE WITH
PROVISIONS OF THE FEDERAL
INFORMATION SECURITY
MANAGEMENT ACT OF 2002
AUDIT REPORT NO. A-OPC-13-006-P
SEPTEMBER 26, 2013
This is a summary of our report on "Audit of the Overseas Private Investment Corporation's
Fiscal Year 2013 Compliance With Provisions of the Federal Information Security Management
Act of 2002." The Federal Information Security Management Act of 2002 (FISMA) requires
agencies to develop, document, and implement an agency-wide information security program to
protect their information and information systems, including those provided or managed by
another agency, contractor, or other source. The act also requires agencies to have an annual
assessment of their information systems.

The Office of Inspector General (OIG) contracted with the independent certified public
accounting firm of Cotton & Company LLP to conduct the audit. Cotton was required to conduct
the audit in accordance with U.S. Government auditing standards. The objective was to
determine whether the Overseas Private Investment Corporation (OPIC) implemented selected
minimum security controls for selected information systems to reduce the risk of data tampering,
unauthorized access to and disclosure of sensitive information, and disruptions to OPIC's
operations.

The audit concluded that OPIC implemented 51 of the 69 tested security controls. For example,
the following controls were operating effectively:

•   Security control assessments and system authorization processes

•   Incident response capabilities

•   Security categorization and risk assessment processes

•   Information system documentation

•   Configuration change control

However, Cotton identified several weaknesses in OPIC's information security controls. Based
on Cotton's report, OIG made 14 recommendations to help OPIC strengthen its information
security program. Management decisions were made on all 14 recommendations, and final
action was taken on one of them. However, OIG did not agree with one management decision
and encouraged OPIC to revise it to fully address the weaknesses identified in Cotton's audit
report.
u.s. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
